       Office of Inspector General
       Audit Report




         Follow-up Audit


Environmental, Safety, and Health Issues
        at EPA Laboratories
           E1DMD8-11-0002-8100185
                July 23, 1998
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit            Washington, DC
Region(s) covered               Headquarters
Program Office(s) Involved      Office of Administration and Resources
                                 Management: Safety, Health and
                                 Environmental Management Division
                                Office of Research and Development:
                                  Office of Resources Management and
                                   Administration
                                Office of Enforcement and Compliance
                                   Assurance: Federal Facilities Enforcement
                                   Office
MEMORANDUM
SUBJECT:       Follow-up Audit of Environmental, Safety, and Health Issues
                at EPA Laboratories
               Audit Report No. E1DMD8-11-0002-8100185
FROM:          Michael Simmons
               Deputy Assistant Inspector General for Internal Audits
TO:            Alvin M. Pesachowitz
               Acting Assistant Administrator
                for Administration and Resources Management

        Attached is our final report on “Follow-up Audit of Environmental, Safety, and Health
Issues at EPA Laboratories.” A draft of this report was issued to you on May 19, 1998, and
comments were received from your office on July 10, 1998. The comments provided describe the
specific actions along with the milestone dates for completion in accordance with EPA Order
2750. Therefore, we are closing the report in our Prime Audit Tracking System upon issuance.

        This report describes findings and corrective actions the Office of Inspector General
(OIG) recommends to improve and strengthen EPA’s environmental, safety and health (ESH)
program. We found that the Agency had implemented many recommendations from our 1995
report. However, we identified areas of concern that required additional improvements. The
report provides recommendations to address these concerns. It represents the opinion of the
OIG. Final determinations on matters in the report will be made by EPA managers in accordance
with established EPA audit resolution procedures. Accordingly, the findings described in this
report do not necessarily represent the final EPA position and are not binding upon EPA in any
enforcement proceedings brought by EPA or Department of Justice.

        We appreciate your response to our draft report and its recommendations. Actions that
the Safety, Health, and Environmental Management Division have already initiated will further
enhance EPA’s ESH program. Should you or your staff have any questions, please contact
Norman E. Roth, Divisional Inspector General for Audit, Headquarters Audit Division on
(202)260-5113.

Attachment
                    EXECUTIVE SUMMARY


INTRODUCTION
        On September 27, 1995, the Office of the Inspector General (OIG) issued a report,
“Environmental, Safety, and Health Issues at EPA Laboratories.” A follow-up audit was initiated
to determine if the Agency had implemented the recommendations provided in that report. Since
most of the recommendations were directed at Agency Headquarters, we limited our audit to
Headquarters offices and did not revisit any laboratories. We focused on available
documentation, to the extent possible, to evaluate progress. We interviewed personnel in the
Office of Administration and Resources Management (OARM) and Office of Research and
Development (ORD). This follow-up audit was conducted from December 1997 through March
1998.

        Environmental Protection Agency (EPA) personnel perform operations in laboratories and
during field inspections which subject the Agency to the very environmental regulations that it is
responsible for promulgating and enforcing. Safety and health programs are also applicable. The
1995 OIG report included recommendations for improvements to EPA’s ESH program and audit
process. Agency management agreed to implement the recommendations or take other actions to
address the issues.

        After the release of the OIG report, the Agency issued the Code of Environmental
Management Principles for Federal Agencies (CEMP) in 1996. This code, which emphasizes
pollution prevention and sustainable development, is applicable to the Agency’s ESH operations.
It focuses federal agencies on the necessity of state-of-the-art environmental management for
reaching the highest levels of environmental performance. CEMP relates closely to our 1995
report recommendation that EPA establish a model environmental program which could also
address safety and health issues.




                                                                                 Report No. 8100185
OBJECTIVES

       The objectives of the follow-up audit were:

•      to determine if Agency management has implemented corrective actions indicated in their
       response to the 1995 OIG report and,

•      to assess the Agency’s status in implementing CEMP as established for federal agencies.




RESULTS IN BRIEF
        The Agency implemented most of the corrective actions addressed in our 1995 OIG
report. However, improvements could be made in the evaluation of EPA’s ESH personnel and in
the Agency’s ESH audit process and reporting requirements. Also, we recommended in our prior
report that EPA develop a model program to serve as a standard for environmental management.
EPA has not fully implemented CEMP requirements, which would generally meet the intent of
our recommendation. In its role as a leader both nationally and internationally in environmental
programs, EPA should establish a standard for excellence in implementing responsible
environmental management at its own laboratory and facility operations.




RECOMMENDATIONS
      We recommend that the Acting Assistant Administrator for Administration and Resources
Management:

•      Strengthen ESH audit protocol to address training and qualifications of ESH personnel to
       best complement the individual laboratories’ ESH needs.

•      Further enhance the ESH audit process for risk assessment and access to audit corrective
       action tracking systems.

•      Fully implement CEMP, challenging the Agency to move forward to a higher level of
       environmental management and provide leadership not only for federal, but also national,
       ESH programs.




                                               ii                              Report No. 8100185
Agency Response & OIG Evaluation

        The Office of Administration and Resources Management generally agreed with each of
the recommendations in the draft report and provided planned corrective actions as well as
milestone dates for completion. The specific corrective actions planned are included after each
chapters’ recommendations and the response is included in its entirety as Appendix II.

        We believe the corrective actions underway and planned by the Agency address the
report’s recommendations, therefore, we are closing this report upon issuance. No further
response by the Agency is necessary.




                                                iii                             Report No. 8100185
Report No. 8100185
                               TABLE OF CONTENTS

                                                                                                                                      Page

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

Chapter 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
               Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
               Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
               Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
               Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Chapter 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
       EPA’s Implementation of Corrective Actions to Improve Its ESH Program . . . . . . . . . . 3
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Chapter 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17
       EPA’S Implementation of CEMP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       17
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             20
               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  20

Appendices:
      Appendix I. Results of 1995 Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
      Appendix II. Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
      Appendix III. Distribution of Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33




                                                                     iv                                             Report No. 8100185
               ABBREVIATIONS
CEMP        Code of Environmental Management Principles for Federal Agencies
EPA         Environmental Protection Agency
EMR         Environmental Management Review
ERL         Gulf Breeze- Environmental Research Laboratory Gulf Breeze, Florida
ESH         Environmental, Safety and Health
OARM        Office of Administration and Resources Management
OIG         Office of Inspector General
ORD         Office of Research and Development
RCRA        Resource Conservation and Recovery Act
RTP         Research Triangle Park
SHEMD       Safety, Health, and Environmental Management Division
SHEMP       Safety, Health, and Environmental Management Program
SHEMPMGRs   Safety, Health, and Environmental Management Program Managers




                                     v                           Report No. 8100185
             CHAPTER 1
                 Introduction



Purpose              On September 27, 1995, the Office of the Inspector
             General (OIG) issued a report, “Environmental, Safety, and
             Health Issues at EPA Laboratories.” The report included
             recommendations for improvements in the Agency’s
             environmental, safety, and health (ESH) program and audit
             protocol. Agency management agreed to implement the
             recommendations or take other actions to address the
             issues. The objectives of the follow-up audit were to:

             •      determine if Agency management has implemented
                    corrective actions indicated in their response to the
                    report and,

             •      assess the Agency’s status in implementing the Code
                    of Environmental Principles (CEMP) established for
                    federal agencies.


Background           Environmental Protection Agency (EPA) personnel
             perform many of the same functions that are subject to the
             very environmental regulations that the Agency is
             responsible for promulgating and enforcing. These
             regulations include liability for sanctions covered under the
             Federal Facilities Compliance Act. The Agency is
             responsible for maintaining internal safety and health
             programs under Part 19 of the Occupational Safety and
             Health Act of 1970 and Executive Order 12196,
             Occupational Safety and Health Programs for Federal
             Employees, dated February 26, 1980. In addition,
             Executive Order 12856, Federal Compliance with Right-to-
             Know Laws and Pollution Prevention Requirements,
             required the Agency to establish a voluntary “Federal
             Government Environmental Challenge Program” including a
             code of environmental management principles.



                       1                                 Report No. 8100185
                                Since the completion of the 1995 OIG report, the
                        Agency issued the Code of Environmental Management
                        Principles for Federal Agencies (CEMP) on October 16,
                        1996. This code is closely related to the OIG report
                        recommendation that EPA establish a model environmental
                        program (which could also address safety and health issues).
                        This model program would assist management by providing
                        an overview of the ESH program and supplement the
                        Agency’s ESH audit protocol.


Scope and Methodology           The follow-up audit was performed in accordance
                        with the Generally Accepted Government Auditing
                        Standards (Government Auditing Standards, 1994
                        Revision). Audit work was conducted from December
                        1997 through March 1998. We focused on available
                        documentation, to the extent possible, to evaluate progress.
                        In addition, we interviewed personnel in the Office of
                        Administration (OARM), including SHEMD, and in the
                        Office of Research and Development (ORD). We talked to
                        Federal Facilities Enforcement Office personnel in the Office
                        of Enforcement and Compliance Assurance for information
                        related to the CEMP. We reviewed SHEMD policy and
                        procedure documents and audit reports. Since most of the
                        recommendations from the previous review were directed at
                        Headquarters, we limited our review to Headquarters
                        offices and did not revisit field activities. This audit was a
                        short-term study of EPA activities, performed to determine
                        progress in correcting previously identified issues.


Prior Audit Coverage           Recommendations from the September 27, 1995
                        OIG audit report, “Environmental, Safety, and Health Issues
                        at EPA Laboratories,” are provided in Appendix I.

                                No additional OIG reports have been issued directly
                        related to EPA’s Environmental, Safety, and Health
                        program.




                                  2                                 Report No. 8100185
                           CHAPTER 2
  EPA’S IMPLEMENTATION OF CORRECTIVE ACTIONS
           TO IMPROVE ITS ESH PROGRAM

                                    In our 1995 audit, we found that, although EPA’s
                           ESH Program for laboratories was improving, it was
                           inadequate overall. We evaluated the ESH programs at five
                           laboratories, reviewing the performance of ten critical ESH
                           program elements such as environmental program support,
                           management support, and building and fire safety. These
                           elements were rated as model, adequate, or inadequate. All
                           facilities were rated inadequate in at least two of the ten
                           critical elements. One laboratory (Gulf Breeze) was rated
                           inadequate in nine of ten elements. We believed that an
                           inadequate rating in even one element left the facility
                           vulnerable. We also found that OARM needed to improve
                           the ESH audit process and its visibility to management.
                           Concerns included: use of contractors to perform the
                           audits; less than timely release of draft and final reports; and
                           inadequate consideration of laboratory responses to issues
                           addressed in the draft reports. Our recommendations in the
                           1995 report and the actions the Agency has taken are
                           addressed in the following sections.


Declare EPA’s ESH                  ORD identified its ESH program as a material
Programs an Agency-Level   weakness in its Integrity Act reports since 1992. However,
Weakness During the 1995   our 1995 audit confirmed that program inadequacies were
Integrity Act Process.     not confined to only ORD laboratories. We observed no
                           major differences in the implementation of the ESH
                           program in either ORD or Regional laboratories.
                           Furthermore, SHEMD's audits were performed in the same
                           manner at Regional and program office laboratories, and the
                           types and number of findings were similar.

                                  Based on our recommendation, EPA declared
                           “Safety, Health, and Environmental Management Issues at
                           EPA Laboratories” as an Agency-level weakness in the
                           1995 Integrity Act report. The corrective actions, which
                           were to be completed in fiscals 1996 and 1997, included

                                      3                                 Report No. 8100185
                          directing senior managers to take personal management
                          responsibility for their ESH programs, committing adequate
                          resources to manage their programs, correcting all
                          outstanding weaknesses, and conducting self evaluations.

                                  OARM, specifically SHEMD, was accountable for
                          monitoring the progress of laboratories in enhancing their
                          respective programs. SHEMD also was responsible for
                          enhancing its audit protocol for selecting facilities to audit;
                          upgrading its automated follow-up process to better track
                          corrective actions; and providing senior managers periodic
                          assessments of individual facility ESH programs and
                          reminders of all open findings. Result indicators included
                          improvements in laboratory managers’ periodic self-
                          assessments, corroborated by fewer Headquarters’ ESH
                          audit deficiencies and quicker resolution of outstanding
                          findings. At the end of fiscal year 1997, the Agency
                          reported that all corrective actions had been completed and
                          the Agency-level weakness was resolved.

                                  We believe that the Agency has taken adequate
                          action to address the OIG requirements for this
                          recommendation. No further action is required.


Require OARM To Develop           For several years, many EPA managers have
a Model Environmental     identified weaknesses in the Agency's ESH program and
Program Which Also        recognized that the Agency needs to do more to strengthen
Addresses Occupational    it. Laboratory managers and ESH personnel generally
Safety and Health         supported the concept that the Agency should have more
Requirements.             than just an adequate ESH program. Given that EPA has
                          created the environmental regulations and enforces
                          compliance at federal and private laboratories, EPA should
                          set the standard for excellence at its own laboratories. In
                          fact, Executive Order 12856 states that, “. . . the Federal
                          Government should become a leader in the field of pollution
                          prevention through management of its facilities, its
                          acquisition practices, and in supporting the development of
                          innovative pollution prevention programs and
                          technologies.” Although EPA has made progress in ESH
                          program improvements, some laboratory personnel, who
                          were not directly responsible for ESH programs, resisted
                          being held responsible for any requirements beyond


                                     4                                 Report No. 8100185
                           regulatory requirements. The 1995 OIG report
                           recommended that the Agency clarify its ESH program
                           goals in order to formally define a model ESH program
                           based on the inadequacies identified at five EPA
                           laboratories.

                                    Subsequent to our report, EPA’s Office of
                           Enforcement and Compliance Assurance issued CEMP,
                           which closely relates to our recommendation for a model
                           program. Therefore, we assessed the Agency’s progress in
                           meeting CEMP. The assessment is discussed in Chapter 3
                           of this report.


Instruct ORD and OARM              Of the five facilities we reviewed in the 1995 audit,
to Take Immediate Action   Environmental Research Laboratory (ERL) Gulf Breeze had
to Reduce ESH Risks at     the weakest ESH program. The facility experienced two
ERL Gulf Breeze.           fires and was cited for a Resource Conservation and
                           Recovery Act (RCRA) violation. We also found another
                           RCRA violation during the OIG on-site visit. The
                           conditions at ERL Gulf Breeze jeopardized the health and
                           safety of EPA employees and possibly that of the nearby
                           residential community as well. We recommended that ORD
                           and OARM take immediate action to reduce ESH risks at
                           ERL Gulf Breeze and document completed actions. The
                           Agency agreed to monitor and keep management apprised
                           of progress.

                                   In May 1997, SHEMD completed an audit of
                           National Health and Environmental Effects Research
                           Laboratory, Gulf Ecology Division, Gulf Breeze (formerly
                           ERL Gulf Breeze). The report noted a dramatic decrease in
                           the overall number and severity of environmental, safety and
                           health, and fire findings since the 1994 audit. In addition,
                           we reviewed documentation of corrective actions at Gulf
                           Breeze. This document indicated that SHEMD and ORD
                           assisted Gulf Breeze’s program by completing a
                           comprehensive inventory of all hazardous chemicals and
                           constructing an automated chemical management system.
                           Finally, SHEMD’s corrective action data base showed that
                           Gulf Breeze had closed out several of the findings from
                           SHEMD’s 1997 audit and were addressing the remaining
                           findings. According to the SHEMD in-house auditor, a new


                                     5                                Report No. 8100185
                           director had been assigned to Gulf Breeze after the 1994
                           audit and the director was more involved with the ESH
                           audit issues. This auditor noted that the laboratory has
                           turned around and is now in “great shape.”

                                   We believe that ORD and OARM have taken
                           adequate action to reduce ESH risks at ERL Gulf Breeze
                           based on the 1997 SHEMD audit, SHEMD documentation,
                           and interviews with Agency officials. No further action is
                           required.


Ensure that ORD                    ORD identified its ESH program as a material
Coordinates with OARM so   weakness in Integrity Act reports since 1992. ORD took
that ORD’s ESH Program     action to address its internal control weaknesses by
Complements, Rather than   appointing a full-time industrial hygienist to develop and
Duplicates, the Agency’s   manage an ORD-wide program. Plans for the program
Program.                   included technical assistance and an audit process, modeled
                           after SHEMD's program, to provide more frequent
                           evaluations of ORD laboratories.

                                  According to an official in the ORD’s Office of
                           Resources Management and Administration, the ESH
                           program for ORD has been affected by the laboratory
                           reorganization. ORD reorganized their laboratories after
                           our 1995 audit so that the divisional laboratories are
                           grouped by research category under three National Labs (or
                           “mega-labs”). Each divisional laboratory now has its own
                           ESH manager, as well as an ESH point of contact at each
                           mega-lab. ORD is considering a strategy where ORD-wide
                           and major ESH issues concerning the mega-labs are
                           coordinated through a Headquarters liaison to OARM.

                                  We believe that ORD’s reorganization and regular
                           communication between ORD and OARM has sufficiently
                           addressed our recommendation. No further action is
                           required.




                                     6                               Report No. 8100185
Instruct OARM to                    During our 1995 review, we questioned whether
Identify and Prioritize    adequate consideration was given to appropriate expertise
Specific Laboratories’     and skills when filling ESH vacancies at two of the facilities.
ESH Needs in               Technical expertise and skills mix are critical components to
                           having a model, or even an adequate, ESH program. We
Determining ESH
                           recommended that SHEMD assist laboratories in the
Position Requirements.
                           identification and selection of needed skill mix and qualified
                           personnel. SHEMD agreed to offer counsel in hiring ESH
                           personnel, but did not want oversight responsibility for
                           personnel decisions of local managers. SHEMD also stated
                           that it believed that it addressed   staff requirement issues
                           in their ESH audits. We did not agree that these actions
                           were adequate to completely address ESH personnel
                           qualification issues. Our report further recommended that
                           SHEMD make written recommendations to facility directors
                           on how best to advertise and fill ESH vacancies. Also,
                           SHEMD concurrence on the experience and expertise of an
                           ESH position selectee should be obtained prior to filling the
                           ESH position.

                                   According to the Director of SHEMD, Draft EPA
                           Order 1440.1 included a section that would require
                           SHEMD concurrence before filling an ESH position. This
                           section was not approved during formal Agency
                           management review of the document because Agency
                           program offices and regional laboratories did not agree with
                           the proposal. SHEMD management stated that they have
                           been informally asked to review candidates for certain ESH
                           positions, but do not have final concurrence authority.

                                    Since formal SHEMD involvement in the selection
                           process will not be implemented, OARM could strengthen
                           its audit protocol by identifying and prioritizing specific
                           needs such as training requirements and skill qualifications.


Improve Coordination of            Research Triangle Park (RTP) has three program
ESH Activities at          offices with ESH responsibilities: OARM, ORD, and OAR
Facilities Where Program   (Office of Air and Radiation). We found that ORD’s ESH
Offices Are Co-located.    safety committee did not sufficiently represent the ESH
                           needs of all three program offices. Additionally, RTP
                           officials did not appear to coordinate when selecting the
                           proper skill mix for qualified ESH personnel. We


                                      7                                Report No. 8100185
                           recommended that OARM, in conjunction with applicable
                           program offices, develop and implement a plan to improve
                           coordination at facilities where program offices are co-
                           located, such as RTP and Cincinnati, so that there is a
                           facility-wide ESH program which covers all operations and
                           addresses facility weaknesses. Our report also
                           recommended that the SHEMD audit protocol include
                           review of the coordination plan and its implementation at
                           applicable locations.

                                   SHEMD addressed this recommendation by
                           incorporating issues related to co-located facilities into their
                           Draft EPA Order 1440.1: Safety, Health & Environmental
                           Management, which is currently awaiting signature. It
                           states:

                                   In Co-located Facilities, where more than
                                   one AA or RA share management of the
                                   SHEMP (Safety, Health, and Environmental
                                   Management Program) program and
                                   implementation strategies, the program will
                                   be integrated into one location-wide or
                                   facility-wide program, by written agreement
                                   between the parties, and there will be clearly
                                   assigned SHEMP delegations of authority,
                                   responsibilities and accountability for
                                   program implementation and evaluation
                                   (e.g., Las Vegas, Cincinnati, RTP, etc.).

                                   We believe that this action addresses the intent of
                           our recommendation, but urge that OARM follow-up to
                           ensure that this section regarding co-located facilities
                           remains in the final version of EPA Order 1440.1.


Enhancement of Audit               Previously, ESH audits were accomplished
Process Through            exclusively by a SHEMD technical expert serving as team
Increased Involvement of   leader and a contractor team of two to five experts. We
Program and Regional       reported that many laboratory managers were critical of
                           SHEMD’s overdependence on contractors, whose lack of
ESH Personnel in Audits.
                           knowledge of EPA’s background, history, and operations
                           adversely affected the audits. SHEMD officials explained
                           that their request for “contractor conversion” to bring more


                                      8                                  Report No. 8100185
                          ESH expertise in-house was not approved. However,
                          laboratory management was willing to provide laboratory
                          ESH personnel to participate in SHEMD audits of other
                          Agency facilities if SHEMD would be willing to support
                          part of the travel expenses incurred. This would allow the
                          audit participant to acquire training and a greater
                          understanding of the audit process, while the audit process
                          and the audited facility would benefit from the experience of
                          the participant.

                                  SHEMD began using program and regional ESH
                          personnel to assist the contract personnel in the ESH audit
                          process. According to the SHEMD in-house auditor, two
                          ORD employees assisted in performing audits last year.
                          This year, regional employees are scheduled to assist on
                          several audits. SHEMD is also negotiating with ORD to
                          fund one or two more people this year. SHEMD
                          management agreed it is helpful when ESH personnel are
                          involved in the audit process because EPA employees may
                          have a better understanding of EPA specific ESH issues.
                          Also, audits involving EPA field personnel are perceived by
                          the facilities more as an “internal review” than a
                          “Headquarters’ audit.” The Agency has begun enhancing
                          the audit process by increasing the use of EPA personnel in
                          the audit process. No further action is required on this
                          issue.


Elevation of Reports to            We were concerned about the lack of visibility of the
EPA Top Managers when     ESH audit reports to top management. ESH audit reports
Reports Identify          were issued to management one level above the audited
Significant Risk.         facility. SHEMD did not have a standard protocol for
                          elevating uncorrected deficiencies, potentially dangerous
                          situations, or other serious concerns to the next level.
                          Therefore, top-management may not have been aware of the
                          potential impact of at-risk facilities on the Agency as a
                          whole.

                                  Currently, SHEMD reports for ORD laboratories
                          are sent to the National Lab Directors and to the divisions.
                          Audit reports for regional laboratories are addressed to
                          either the Deputy Regional Administrator or the Assistant
                          Regional Administrator. We found several examples where


                                    9                                 Report No. 8100185
                               ESH issues were elevated to a higher level of management.
                               For example, SHEMD elevated a corrective action report
                               regarding open findings from Gulf Breeze’s 1993 audit to
                               both the National Lab Director (ORD) and to the Director
                               of the Office of Administration (OARM).

                                       SHEMD also added an executive summary to their
                               reports to facilitate communication to senior management.
                               We agree that inclusion of an executive summary improves
                               communication; however, the current summary format only
                               counts numbers of violations and compares them with
                               previous years’ violations. The summary section would be
                               more helpful if it presented a risk assessment describing the
                               laboratory’s progress toward meeting EPA’s environmental
                               goals to improve environmental performance. (Discussed in
                               Chapter 3).


Improvement of the
OARM ESH Audit
Reporting Process.

Increasing the Timeliness of            In the 1995 audit, we identified concerns with the
Audit Reports and              timeliness of the audit reports. If results of the audit are not
Associated Responses           communicated timely, needed corrective actions may be
                               delayed. We suggested that one way to address this issue
                               was to provide a written draft report for laboratory
                               comment at the SHEMD audit exit conference. We
                               recommended that OARM increase the timeliness of audit
                               reports and associated reports, which would include
                               establishing response time frames for program and Regional
                               offices.

                                       Presently, the audit team debriefs the laboratory
                               personnel and presents written preliminary summary results
                               prior to departure. According to a SHEMD official,
                               providing comments during the exit has reduced the total
                               audit time-line at the completion of the audit. However, the
                               SHEMD in-house auditor is not satisfied with the average
                               overall time it has been taking to complete an audit to final
                               report. She explained that final reports have been held up
                               due to additional response time requested by facilities, and
                               errors (usually typographical) made by the contractor.

                                         10                                 Report No. 8100185
                                        We reviewed SHEMD’s updated ESH audit reports
                                for three of the five facilities included in our 1995 report.
                                These audits were performed at Gulf Breeze, RTP, and
                                Kansas City facilities between 1996 and 1997. Two of the
                                reports took four or more months after completion of site
                                work before final issuance. Timeliness in reporting is
                                important to avoid potential delays in corrective action and
                                to ensure that upper-management is promptly aware of
                                EPA’s ESH vulnerabilities.

                                        SHEMD should focus on further improvement and
                                consistency in the timeliness of audit reports. Delays could
                                be avoided by establishing response time frames for
                                program and Regional offices.

Incorporation of the Facility            Previously, laboratory management did not believe
Response to the Draft           that they received adequate consideration for their
Report Into the Final           responses for issues addressed in the draft audit report.
Report                          Although SHEMD had made an effort to respond to draft
                                comments, the feedback process was informal and
                                ineffective in answering facility concerns. We
                                recommended that SHEMD address and evaluate Agency
                                comments to the draft reports in writing in the final report
                                itself to make it clear to the auditees whether their
                                responses to the recommendations in the draft were
                                acceptable and complete. SHEMD management indicated
                                that they would be willing to consider changing their format
                                to accommodate this change.

                                        Draft EPA Order 1440.1 states that SHEMD will
                                incorporate comments of ESH officials from the draft audit
                                report into the final report. The SHEMD in-house auditor
                                stated that facility responses are already being considered in
                                the final report. However, we reviewed several final reports
                                and were unable to clearly distinguish auditee comments
                                within the reports. It appears that the audit reports are still
                                not explicitly demonstrating whether auditees’ responses to
                                the draft reports were accepted.

                                       SHEMD should ensure that the auditee comment
                                requirement is included in the final EPA Order 1440.1.
                                Additionally, SHEMD should more clearly identify facility
                                responses to the draft report in the final report.


                                          11                                 Report No. 8100185
Improvement of Corrective            SHEMD’s initial automated system maintained
Action Tracking             corrective action tracking and other audit information.
                            However, neither management nor audited facilities could
                            access the system to review information. Audited facilities,
                            therefore, could not provide automated updates for
                            corrective action tracking. The facility had to provide
                            corrective action status reports to SHEMD in order for the
                            audit contractor to update the system. SHEMD personnel
                            stated they were planning to institute a monthly process to
                            provide reports to field facilities, as both a means to
                            encourage updates and ensure that Headquarters received
                            updates. Eventually, SHEMD wanted to have the tracking
                            system available for review through the Agency's local area
                            network. We recommended that SHEMD increase the
                            visibility of and improve access to the corrective action
                            tracking system.

                                     Improvements to the LAN system now allow some
                            facilities to review the status of their findings on the
                            SHEMD database. Quarterly hardcopy reports on open
                            findings are provided to facilities. Information to update
                            findings can be sent back to SHEMD through e-mail, by
                            disk, or in hardcopy. Findings are reviewed by SHEMD
                            officials and updated in SHEMD’s data base on a monthly
                            basis. According to SHEMD officials, they would
                            eventually like to allow facilities to edit and update their
                            own changes online, but only after SHEMD has
                            implemented additional controls to the system. According
                            to a SHEMD official, the timeliness of facility responses has
                            improved since they started sending quarterly reminder
                            reports on the status of findings to the facilities.

                                     SHEMD has improved their corrective action
                            tracking system to ensure that interim actions are tracked
                            during long term corrective actions and are working toward
                            providing additional accessibility for the system to field
                            facilities and top management. SHEMD officials should
                            ensure that appropriate access to the system is established.

Conclusion                         The Agency has improved its ESH management
                            system and has complied with the majority of our prior
                            recommendations. However, EPA needs to address the
                            adequacy of ESH personnel staffing, and finalize ongoing


                                      12                               Report No. 8100185
                  audit process and reporting improvements. Because CEMP
                  principles closely related to our previous recommendation,
                  the Agency also needs to consider the model program,
                  which is discussed in Chapter 3 of this report.


Recommendations          We recommend that Acting Assistant Administrator
                  for Administration and Resources Management:

                  2-1    Assist facilities in identifying and prioritizing
                         laboratories’ ESH needs by strengthening audit
                         protocol to address training and qualifications to
                         best complement laboratories' ESH programs.

                  2-2    Ensure that the requirement for coordinated ESH
                         programs at co-located facilities is included in the
                         final version of EPA Order 1440.1.

                  2-3    Further improve the audit process by:

                         a.        Enhancing the executive summary to more
                                   clearly identify risk to assist the Agency in
                                   assessing and improving its ESH
                                   performance goals.

                         b.        Clearly identifying facility comments/
                                   responses to the draft in the final report.

                         c.        Promoting more timely audit responses and
                                   reporting, which would include
                                   establishing response time frames for
                                   program and Regional offices.

                         d.        Increasing access to corrective action
                                   tracking data base with appropriate
                                   controls.




                              13                                Report No. 8100185
Agency Response   Recommendation 2-1

                  SHEMD agreed to modify its auditing protocol to
                  strengthen its assessment of training requirements and skill
                  qualifications for safety, health and environmental managers.
                  SHEMD believes that this addition will assist managers with
                  the preparation and implementation of their individual
                  development plans. The expected date for completing this
                  action is October 31, 1998.

                  Recommendation 2-2

                  The Agency addressed coordination of ESH programs at
                  co-located facilities in the final version of EPA Order
                  1440.1, signed May 11, 1998.

                  Recommendation 2-3

                  a.     SHEMD agreed to add a generic risk assessment
                         discussion to the executive summary of its ESH
                         audit reports beginning in August 1998.

                  b.     In April 1998, SHEMD began to include a tabular
                         summary of audit findings, auditee comments, and
                         SHEMD comments with the distribution of the final
                         audit report. SHEMD also plans to amend its audit
                         program document to reflect this standard
                         procedure.

                  c.     SHEMD stated that it does specify response time
                         frames for program and Regional office reviews of
                         draft and final audit reports. In addition, SHEMD
                         will attempt to improve the timeliness of responses
                         by assuring that draft reports are sent to senior
                         managers and that appropriate follow-up actions are
                         taken. A SHEMD official will also track the status
                         of corrective actions for audits and an automated
                         tickler system will be implemented to assist in
                         reminding managers of audit response dates by
                         August 1998.

                  d.     SHEMD will make its corrective action tracking
                         system accessible to SHEMP managers when


                            14                               Report No. 8100185
                                  internal control issues are resolved (expected within
                                  the next fiscal year). In the interim, SHEMD will 1)
                                  download the information from the tracking system
                                  into a word processing file, 2) send it through e-mail
                                  to the appropriate SHEMP managers and senior
                                  management officials for an update on the status of
                                  open findings, and 3) request that they forward the
                                  updated file, electronically, to SHEMD to be
                                  uploaded into the corrective action tracking
                                  database. This approach eliminates the need to train
                                  individuals on the occasional use of the database and
                                  stimulate communication between field mangers and
                                  SHEMD officials


OIG Evaluation of Agency         The proposed corrective actions will address the
Response                   recommendations and no further action is required.




                                    15                                Report No. 8100185
(This page intentionally left blank)




                16                     Report No. 8100185
       CHAPTER 3
EPA’S IMPLEMENTATION OF CEMP


                 Although SHEMD has made improvements to
        EPA’s ESH management program, it can take additional
        steps to be a leader in environmental management.
        Executive Order 12856, Federal Compliance with Right-to-
        Know Laws and Pollution Prevention Requirements, states
        that, “. . . the Federal Government should become a leader
        in the field of pollution prevention through management of
        its facilities, its acquisition practices, and in supporting the
        development of innovative pollution prevention programs
        and technologies.” The order directs federal agencies to
        agree to sign onto a code of environmental principles
        emphasizing pollution prevention, sustainable development,
        and beyond compliance environmental management
        programs.

                The Code of Environmental Management Principles
        (CEMP) is a collection of five principles that provide a basis
        for federal agencies to move toward responsible
        environmental management and reach the highest levels of
        environmental performance. It focuses federal agencies on
        the necessity to develop state-of-the-art environmental
        management that ensures a best-in-class environmental
        program.

                The goal of CEMP is to move Agencies beyond
        compliance and the traditional short-term focus on
        regulatory requirements to a broader, more inclusive view
        of the interrelated nature of their environmental activities.
        Implementing guidance for CEMP notes that short-term
        success is no indicator of the long-term stability of the
        environmental management system, and may even lead to
        complacency. Agencies that fully integrate their system will
        be in a better position to identify weak points and predict
        future risks, managing their resources for prevention, not
        just response. Ultimately, agencies that invest in the

                  17                                  Report No. 8100185
implementation of CEMP principles are likely to realize a
high return on that investment through an improved risk
profile at their facilities, resulting in a lowering of costs
associated with regulatory compliance, safety and health,
incident response, and cleanup of contaminated sites.

        The fives principles of CEMP are as follows:

•       Management commitment demonstrated through
        written policies to support pollution prevention and
        compliance.
•       Pro-active compliance assurance and pollution
        prevention programs to aggressively identify and
        address deficiencies and improve environmental
        performance.
•       Enabling systems to allow personnel to perform
        functions in an environmentally responsible manner.
•       Performance and accountability measures to ensure
        that expectations for environmentally responsible job
        accomplishments are clear.
•       Measurement and improvement procedures to assess
        progress and use results to reach the highest levels
        of environmental performance.

        The CEMP principles relate closely to the
recommendation in our 1995 report that EPA establish a
model environmental program which also addresses safety
and health issues. Laboratory managers and ESH personnel
generally supported the concept that the Agency should
have more than just an adequate ESH program. During
recent fieldwork, officials in OARM agreed that EPA
should work toward developing a model environmental
management program in line with CEMP. Given the fact
that EPA created the environmental regulations and
enforces compliance at federal and private laboratories, it is
important that EPA aspire to fully implement CEMP as a
leader in environmental management, not only in the federal
sector, but in the nation. We evaluated EPA’s
implementation of CEMP, and found three of the five
principles to be particularly relevant to the OIG model
program recommendation.




          18                                 Report No. 8100185
         One of these principles advocates management
commitment toward improved environmental performance
by establishing a written top-management policy which
emphasizes pollution prevention and the need to ensure
compliance with environmental requirements. Private
companies have demonstrated their dedication to improving
safety and environmental performance through written
statements. For instance, DuPont’s CEO prepared a written
report publicizing the company’s safety, health and
environmental accomplishments, including energy savings
and decreases in toxic and ozone depleting emissions.
General Motors adopted a policy statement, GM
Environmental Principles, affirming the company’s
commitment to a safe and healthy environment. EPA’s top
management could issue a similar policy statement
committing EPA to improved environmental performance.
We also found that environmental management for EPA
facilities is not prominently addressed as a priority in EPA’s
1997 strategic plan. In our opinion, such a policy document
from EPA, as well as clear strategic plan support, could
enhance the Agency’s environmental commitment and
performance.

        Another CEMP principle involves performance and
accountability, recommending agencies develop measures to
address employees’ environmental performance and ensure
full accountability of environmental functions. Commitment
to responsible environmental management should be
integrated into Agency policy by including requirements in
employee performance standards and awards criteria. In
our previous audit, we found that employees’
responsibilities for the ESH programs did not appear to be
addressed in performance ratings. We also examined an
Environmental Management Review (EMR) of an EPA
laboratory completed this past year by EPA regional
pollution prevention staff. The EMR found that the
laboratory staffs’ environmental roles and responsibilities
were not clearly defined and that the environmental impacts
of laboratory operations were not fully understood by all
laboratory personnel. It is important that employee
environmental performance is addressed in their
performance standards and that Agency personnel



          19                                Report No. 8100185
                  understand and are held accountable for their environmental
                  responsibilities.

                           Measurement and improvement of the Agency’s
                  environmental performance and goals is the third relevant
                  principle. SHEMD stated that risk assessments are
                  completed by comparing individual laboratory ESH audit
                  results from year to year. However, we do not believe that
                  this information clearly identifies environmental risk
                  Agency-wide. An Agency-wide assessment would allow
                  EPA to classify its risk in different areas (e.g., training,
                  building and fire safety, management support). Then, EPA
                  can determine the most significant areas of weakness and
                  respond accordingly toward environmental, safety, and
                  health performance organization-wide. This assessment
                  would also allow the Agency to evaluate its progress
                  toward meeting overall environmental goals.


Conclusion                The Agency has improved its environmental, safety,
                  and health program, and is now ready to meet the next
                  challenge. CEMP encourages federal agencies to emphasize
                  responsible environmental management. In its role as a
                  leader both nationally and internationally in environmental
                  programs, the Agency should also be a leader in setting a
                  standard for excellence in implementing responsible
                  environmental management at its laboratory and facility
                  operations.

Recommendations          We recommend that Acting Assistant Administrator
                  for Administration and Resources Management:

                  3-1    Move EPA toward meeting the highest levels of
                         environmental performance in line with CEMP.
                         Steps include:

                         a.        Demonstrate management commitment
                                   through a written top-management policy.

                         b.        Develop measures to address employee
                                   environmental performance and ensure full
                                   accountability of environmental functions.



                              20                              Report No. 8100185
                                  c.        Strengthen the risk assessment of the Agency
                                            as a whole so that EPA can determine areas
                                            of weakness and respond toward improving
                                            environmental performance.


Agency Response            Recommendation 3-1(a)

                           SHEMD is currently reviewing corporate policies and
                           management commitment statements by Corporate
                           Executive Officers and other Federal Agency Heads.
                           SHEMD plans to have a similar statement available for
                           signature by the Agency’s senior management by November
                           1, 1998.

                           Recommendation 3-1(b)

                           SHEMD stated that the accountability requirement for
                           environmental performance by senior management is
                           contained in the EPA Order 1440.1. SHEMD reviews the
                           performance standards of managers as part of its
                           management systems review during audits. Incorporating
                           environmental systems and establishing a corporate culture
                           of laboratory workers will be presented at SHEMD’s
                           national workshop for EPA safety, health and environmental
                           managers in July 1998. SHEMD will upgrade its auditing
                           protocol by December 1998 and will assist auditors in
                           evaluating the extent to which environmental management
                           principles have been instilled in the work ethic of managers
                           and employees.

                           Recommendation 3-1(c)

                           SHEMD agreed to add an interpretation section to their
                           annual summary addressing Agency risk attributable to
                           observations made during audits for fiscal year 1998. This
                           report is typically completed by November 15th of each year.




OIG Evaluation of Agency         We agree with the Agency’s actions for this
Response                   recommendation. No further action is necessary.


                                       21                              Report No. 8100185
22   Report No. 8100185
                                  APPENDIX I
                              RESULTS OF 1995 AUDIT



ESH PROGRAM

        In our 1995 audit, we found that, although EPA’s ESH Program for laboratories was
improving, it was inadequate overall. The ESH programs at five laboratories were evaluated and
the performance of critical ESH program elements rated as model, adequate, or inadequate.
Elements included industrial hygiene support, building and fire safety support, environmental
management support, facility ESH self-inspection, building and facilities support, ESH committee,
management support and involvement, ESH professional and best management practices,
contractor monitoring and interface, and training.

        All facilities were rated inadequate in at least two of the ten elements. One laboratory
(Gulf Breeze) was rated inadequate in nine of ten elements. We believe that an inadequate rating
in even one element leaves the facility vulnerable. Given EPA’s position in the regulated
community, EPA should become the leader in developing a model environmental program. This
model program would provide a management tool to assist in assessing and improving the ESH
program at Agency laboratories.

       To improve EPA’s program, we recommended that the Deputy Administrator:

•      Declare EPA’s Environmental, Safety and Health (ESH) programs, at a minimum, an
       Agency-level weakness during the 1995 Integrity Act process, unless immediate actions
       result in major program improvements.

•      Require OARM, in conjunction with the program offices, to develop a model
       environmental program which also adequately addresses occupational safety and health
       requirements to provide a management overview as a supplement to present ESH audit
       protocol. Establish clear expectations and ensure that the program is implemented at all
       Agency laboratories.

       a.     As needed, OARM should make improvements to the program element matrix
              contained in this report and use it as the basis for an ESH report card to be
              completed by SHEMD officials at the time of their facility audit or annually if ESH
              conditions warrant.



                                               23                               Report No. 8100185
       b.      OARM should work with program and Regional offices to develop corrective
               action plans to address report card weaknesses and improve the ESH program.

       c.      Regional Administrators should be instructed to reassign the ESH allocated
               resources (.7 FTE per Region) to the regional laboratories unless compelling
               written justification is provided by the Regional Administrator, concurred in by
               SHEMD, and approved by the Assistant Administrator, OARM.

•      Instruct ORD and OARM to take immediate action to reduce ESH risks at Environmental
       Research Laboratory (ERL) Gulf Breeze and document completed actions.

•      Ensure that ORD coordinates with OARM so that ORD’s ESH program complements,
       rather than duplicates, the Agency’s program.

•      Instruct OARM to identify and prioritize specific laboratories’ ESH needs in determining
       ESH position requirements to best complement laboratories’ ESH programs.

       a.      Require SHEMD to make a written recommendation to the facility director on
               how best to advertise and fill full-time ESH vacancies. The recommendation
               should indicate what skill mix will most improve the report card ratings.

       b.      SHEMD concurrence on the experience and expertise of an ESH position selectee
               must be obtained prior to filling the ESH position.

•      Instruct OARM, in conjunction with applicable program offices, to develop and implement
       a plan to improve coordination at facilities where program offices are co-located, such as
       RTP and Cincinnati, so that there is a facility-wide ESH program which covers all
       operations and addresses facility weaknesses. Incorporate review of the plan and its
       implementation into SHEMD audit protocol.

ESH AUDIT PROCESS

        At the time our 1995 OIG review was completed, we found that OARM needed to
improve the ESH audit process and its visibility to management. Several factors contributed to
criticism of the ESH audit process by EPA laboratory managers. Among the concerns addressed
were: use of contractors to perform the audits; treating professional practice findings and
recommendations in the same manner as regulatory findings and recommendations; a less than
timely release of draft and final reports; and inadequate consideration of laboratory responses to
issues addressed in the draft reports.




                                                24                               Report No. 8100185
    We recommended that the Deputy Administrator:

•   Instruct OARM to enhance the ESH audit process by involving program and Regional
    ESH personnel in audits.

•   Establish a process in OARM to elevate reports to EPA top managers when reports
    identify significant risk or continuing problems found during ESH audits.

•   Improve the OARM ESH audit reporting process by:

    a.     Increasing the timeliness of audit reports and associated responses, which would
           include establishing response time frames for program and Regional offices;

    b.     Incorporating the facility’s response to the draft report into the final report, which
           would include an evaluation of facility comments and a clear identification of
           where SHEMD and the facility are not in agreement;

    c.     Improving corrective action tracking (for example, ensuring that interim actions
           are tracked during long term corrective actions, and providing additional
           accessibility of the tracking system to field facilities and top management).




                                             25                                 Report No. 8100185
(This page intentionally left blank)




                26                     Report No. 8100185
                                  APPENDIX II
                                  AGENCY RESPONSE




                                           July 10, 1998



MEMORANDUM

SUBJECT:       Follow-up Audit of Environmental, Safety, and Health Issues at EPA
               Laboratories, Draft Audit Report No: E1DMD8-11-0002

FROM:          Alvin M. Pesachowitz /s / by John Sandy
               Acting Assistant Administrator
                for Administration and Resources Management (3101)

TO:            Michael Simmons
               Deputy Assistant Inspector General for Internal Audits (2421)


       We appreciate your follow-up review of “Environmental Safety and Health Issues at EPA
Laboratories.” Independent program reviews help to assure that we are managing our activities
properly and that we are addressing the needs of our customers.

        I am pleased that you found a much improved environmental, safety, and health program
during this follow-up review. We generally concur with the new recommendations in your draft
report and believe that they will help to further enhance our nationwide program. As input to
your final report, we are providing comments, accomplishments, and our proposed corrective
actions to your recommendations.

        Should you or your staff have any questions regarding this response, please feel free to
contact Julius Jimeno at 260-1640.

Attachment

                                                27                                Report No. 8100185
cc: Deputy Administrator (1102)
    Assistant Administrator for Research and Development (8101R)
    Assistant Administrator for Enforcement and Compliance Assurance (2201A)
    Director, Office of Administration, OARM (3201)
    Director, Office of Resources Management and Administration, ORD (8120R)
    Director, Safety, Health, and Environmental Management Division (3207)
    Director, Federal Facilities Enforcement Office, OECA (2261A)
    OARM Audit Liaison (3102)




                                            28                            Report No. 8100185
            Environmental, Safety, and Health (ESH) Issues at EPA Laboratories
                       Draft Audit Report No. E1DMD8-11-0002
              Comments, Accomplishments, and Proposed Corrective Actions



Chapter 2

2-1            Assist facilities in identifying and prioritizing laboratories’ ESH needs by
               strengthening audit protocol to address training and qualifications to best
               complement laboratories’ ESH programs.

        The Safety, Health, and Environmental Management Division (SHEMD) agrees with this
recommendation and will modify its audit protocol to strengthen our assessment of the training
requirements and qualifications of the Agency’s safety, health, and environmental management
program managers (SHEMPMGRs). This will assist our SHEMPMGRs and their supervisors
with the preparation and implementation of their career and individual development plans. We
will discuss this matter at our technical training conference this month, and expect to enhance our
audit protocol by October 31, 1998. We will also be discussing these matters with the
certification boards for the technical professions associated with our program.

2-2            Ensure that the requirement for coordinated ESH programs at co-located
               facilities is included in the final version of EPA Order 1440.1.

        EPA Order 1440.1 was signed on May 11, 1998, and provides direction for programmatic
issues at the Agency’s co-located facilities. A copy of the signed order was provided to Carolyn
Blair of the IG Audit staff.

2-3            Further improve the audit process by:

            a. Enhancing the executive summary to more clearly identify risk to assist the
               Agency in assessing and improving its ESH performance goals.

        SHEMD will include a generic discussion of risk assessment in the executive summary
section of audit reports, beginning in August 1998.

           b. Articulating facility comments/responses to the draft in the final report.

        Although there is no specific requirement that auditee comments be addressed in writing in
the final report in EPA Order 1440.1, this has always been a standard practice. In April 1998,
SHEMD improved the process by including a tabular summary of audit findings, auditee
comments, and SHEMD’s comments with its final audit report. We trust that this action meets


                                                29                                Report No. 8100185
the intent of your recommendation. We will amend our audit program documentation to clarify
this standard practice. A copy of the summary of comments and responses for the Las Vegas
audit was also forwarded to Carolyn Blair.

           c. Promoting more timely audit responses and reporting.

         Currently, SHEMD does specify response times for Program and Regional Office reviews
of its draft and final audit reports. Typically, responses are requested within 21-28 days. We will
be sending draft reports to senior managers and follow-up with them to improve the timeliness of
responses. We have assigned a SHEMD employee to specifically track the status of responses to
SHEMD audit reports and periodic submittal of corrective action plans, using an automated
tickler system. These system improvements will be implemented by August 31, 1998.

           d. Increasing access to the corrective action tracking data base.

        As soon as all internal control issues can be resolved (which is expected to be completed
within the next fiscal year), SHEMD will make its corrective action tracking system accessible to
SHEMPMGRs. In the interim, our strategy is to: (1) download the information from the tracking
system into a word processing file; (2) send it through e-mail to the appropriate SHEMPMGRs
and senior management officials for an update on the status of open findings; and (3) request that
they forward the updated file, electronically, to SHEMD so that it can be uploaded into the
corrective action tracking database. This technology-based interim approach would eliminate
training and retraining individuals on the occasional use of the database (quarterly) and stimulate
our field managers to provide regular responses to, and communications with, SHEMD’s tracking
system coordinator.

Chapter 3

3-1            Move EPA toward meeting the highest levels of environmental performance
               in line with the Code of Environmental Management Principles (CEMP) by:

          a.   Demonstrate management commitment through a written top-management
               policy.

        SHEMD has been reviewing corporate policies and management commitment statements
signed by Corporate Executive Officers and other federal Agency heads. We expect to have a
similar statement ready for the Administrator by November 1, 1998.




                                                30                                Report No. 8100185
          b. Develop measures to address employee environmental performance and
             ensure full accountability of environmental functions.

        The accountability requirement for environmental performance by senior management is
contained in EPA Order 1440.1, Safety, Health, and Environmental Management Program; and
SHEMD does review performance standards of managers as part of its management systems
review during its audits. Incorporating environmental management systems and establishing a
corporate culture of laboratory workers will be presented at its national workshop for EPA safety,
health, and environmental managers from July 20-24, 1998. SHEMD will upgrade its auditing
protocol in this area by December 1, 1998, and it will help its auditors evaluate the extent to
which environmental management principles have been instilled in the work ethic of managers and
employees.

          c. Strengthen the risk assessment of the Agency as a whole so that EPA can
             determine areas of weakness and respond toward improving environmental
             performance.

        SHEMD prepares an annual report usually by November 15 which summarizes the findings
and results of its auditing program. The report is a “numerical” summary of the information
collected from audits performed during that fiscal year. Beginning with this fiscal year 1998
report, SHEMD will add an interpretation section to its annual summary addressing Agency risk
attributable to the observations made during the audits.




                                               31                               Report No. 8100185
(This page intentionally left blank)




                32                     Report No. 8100185
                             APPENDIX III
                          DISTRIBUTION OF REPORT



Inspector General
Deputy Inspector General for Audit
Divisional Inspectors General
Deputy Administrator
Assistant Administrator for Research and Development
Assistant Administrator for Enforcement and Compliance Assurance
Director, Office of Administration, OARM
Director, Office of Resources Management and Administration, ORD
Director, Safety, Health, and Environmental Management Division
Director, Federal Facilities Enforcement Office, OECA
OARM Audit Liaison




                                            33                     Report No. 8100185
